UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

APR 16 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DENNIS MARC GRIGSBY,

No.

Petitioner-Appellant,

19-17248

D.C. No. 2:16-cv-01886-APG-DJA
District of Nevada,
Las Vegas

v.
DWIGHT NEVEN, Warden; et al.

ORDER

Respondents-Appellees.
Before:

OWENS and BENNETT, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

\X

A

„ Cas£ 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 1 of 25

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA
DENNIS MARC GRIGSBY.

4

Case No.: 2:16-cv-01886-APG-DJA

Petitioner

5

v.

6

BRIAN E. WILLIAMS SR., et al.,

7

Order

Respondents.

8
9

Dennis Marc Grigsby, a Nevada prisoner, filed a petition for a writ of habeas corpus

10 under 28 U.S.C. § 2254. I deny Grigsby’s habeas petition, deny him a certificate of
11 appealability, and direct the Clerk of the Court to enter judgment accordingly.
12 I.

BACKGROUND

13

Grigsby’s convictions are the result of events that occurred in Clark County, Nevada, on

14 April 2, 2008. In its order affirming the denial of Grigsby’s post-conviction petition for a writ of
15 habeas corpus, the Supreme Court of Nevada described the crime, as revealed by the evidence at
16 trial, as follows:
17
18
19
20
21
22
23

In late March 2008, Grigsby kicked his wife, Tina Grigsby, out of their apartment
because he believed that she was dating another man. Several days later, Tina
moved in with her boyfriend, Anthony Davis, who lived in the same apartment
complex as Grigsby. On the night of April 2, 2008, Grigsby got into an argument
with Davis outside of Davis’ apartment. Tina heard the exchange from inside
Davis’ apartment. The argument ceased after a few minutes; Tina heard gunshots
about 10 to 15 minutes later. When the police arrived shortly thereafter, she relayed
this information to police officers, who knocked on Grigsby’s door. There was no
answer. While police were still investigating the crime scene, Grigsby’s mother,
Mildred Grigsby, appeared, asking to gain entiy into Grigsby’s apartment to
retrieve unidentified items. She was not allowed into the apartment but provided a
key, which Grigsby had given her, to police officers so that they could determine if
Grigsby was in the apartment; he was not in the residence. Subsequently, the police
secured a search warrant, search Grigsby’s apartment, and seized several items.

B

, Cas£ 2:16-cv-01886-APG-DJA Document 35

Filed 10/18/19

Page 2 of 25

1 ECFNo. 18-13 at 3.
2

Grigsby was convicted of first-degree murder with the use of a deadly weapon and
possession of a firearm by an ex-felon. ECF No. 15-10 at 2. He was sentenced to life without the

4 possibility of parole for the first-degree murder conviction plus a consecutive tenn of 60 to 240

5 months for the deadly weapon enhancement. He also was sentenced to 16-72 months for the
6 possession of a fireami by an ex-felon conviction. Id. at 3. Grigsby appealed, and the Supreme
7 Court of Nevada affirmed. ECF No. 15-14.
8

Grigsby filed a pro per state habeas corpus petition, a counseled supplemental petition, a

9 pro per first-amended petition, a pro per supplemental first-amended petition, a pro per second10 amended petition, a pro per third-amended petition, and a pro per superseding petition. ECF No.
11 15-16, 16-1, 16-3, 16-4, 16-5, 16-7, 17-6. The state district court denied Grigsby’s petition. ECF
12 No. 17-10. Grigsby moved for reconsideration and filed a notice of appeal. ECF No. 17-11, 1713 12, 17-13. Due to Grigsby’s appeal, the state district court noted that it did not have jurisdiction
14 regarding Grigsby’s motion for reconsideration. ECF No. 18-3. Grigsby moved to stay his
15 appeal at the Supreme Court of Nevada pending resolution of the motion for reconsideration at
16 the state district court. ECF No. 18-4. The Supreme Court of Nevada denied the motion for stay
17 indicating that “[i]f the [state] district court is inclined to grant reconsideration, the [state district]
18 court shall so certify its intention to [the Supreme Court of Nevada], and the matter may be
19 remanded for the limited purpose of allowing the [state] district court to enter an order.” ECF
20 No. 18-5. The state district court granted the motion for reconsideration and set a date for an

21 evidentiary hearing. ECF No. 18-10. Before the evidentiary hearing could be held, the Supreme
22 Court of Nevada affirmed the denial of Grigsby’s state habeas corpus petition. ECF No. 18-13.
23 Grigsby petitioned for rehearing and a stay of remittitur stating that an evidentiary hearing was

2

, Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 3 of 25

1 pending and its order was premature. ECF No. 18-14. The state district court vacated the
2 evidentiary hearing finding that it was moot following the Supreme Court of Nevada’s order.
3 ECF No. 18-15. The Supreme Court of Nevada denied rehearing and issued the remittitur. ECF
4 No. 18-16, 18-17.
5

Grigsby dispatched his pro se federal petition for a writ of habeas coipus on August 8,

6 2016. ECF No. 7. The petition asserts that his federal constitutional rights were violated due to
7 the following alleged violations:
8

9
10
11
12
13
14
15
16

1. The state district court erred in not accommodating a full hearing for him to air
additional reasons for his motion to dismiss counsel.
2. The state district court erred in admitting evidence of the arson of his car.
3. The State committed prosecutorial misconduct when it elicited answers that
bore upon his invocation of the right to remain silent.
4. The state district court erred in allowing demonstrative evidence of a gun when
no gun was recovered.
5. The state district court erred in rejecting his proposed jury instructions.
6. His trial counsel was ineffective in failing to timely move to suppress evidence
recovered subsequent to an invalid warrantless search of his domicile.
7. His appellate counsel was ineffective in failing to raise a claim of prosecutorial
misconduct in his direct appeal.
8. His appellate counsel was ineffective in failing to raise a claim regarding proper
jury instructions in his direct appeal.
9. The Supreme Court of Nevada erred in prematurely issuing its order affirming
the denial of his state habeas corpus petition because an evidentiary hearing was
pending in the state district court.
10. There were cumulative errors.

17
18

The respondents filed a motion to dismiss on April 24, 2017. ECF No. 9. Grigsby

19 opposed the motion, and moved for the appointment of counsel, for expansion of the record, and
20 for an evidentiary hearing. ECF Nos. 22, 23, 24, 25. I granted the respondents’ motion to

21 dismiss in part, denied Grigsby’s motion for the appointment of counsel, denied Grigsby’s
22 motion for expansion of the record, and denied Grigsby’s motion for an evidentiary hearing. ECF
23

3

.

Cas.e 2:16-cv-01886-APG-DJA

Document 35

Filed 10/18/19

Page 4 of 25

1 No. 28. Specifically, I dismissed Grounds 1, 2, 4, and 5 without prejudice at Grigsby’s direction
2 and dismissed Ground 9 without prejudice as non-cognizable. Id.

On May 10, 2018, the respondents filed an answer to the remaining grounds in Grigsby’s
4 petition. ECF No. 31. Grigsby filed a reply on June 18, 2018. ECF No. 32. And the respondents
5 filed an opposition to Grigsby’s reply on June 29, 2018. ECF No. 33.

6 II.

STANDARD OF REVIEW

7

The standard of review generally applicable in habeas coipus cases is set forth is the

8 Antiterrorism and Effective Death Penalty Act (AEDPA):

9
10
11
12
13

An application for a writ of habeas corpus on behalf of a person in custody pursuant
to the judgment of a State court shall not be granted with respect to any claim that
was adjudicated on the merits in State court proceedings unless the adjudication of
the claim —
(1) resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the
United States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts
in light of the evidence presented in the State court proceeding.

14

15 28 U.S.C. § 2254(d). A state court decision is contrary to clearly established Supreme Court
16 precedent, within the meaning of 28 U.S.C. § 2254, “if the state court applies a rale that
17 contradicts the governing law set forth in [the Supreme Court’s] cases” or “if the state court
18 confronts a set of facts that are materially indistinguishable from a decision of [the Supreme]
19 Court.” Loctyer v. Andrade, 538 U.S. 63, 73 (2003) (quoting Williams v. Taylor, 529 U.S. 362,
20 405-06 (2000), and citing Bell v. Cone, 535 U.S. 685, 694 (2002)). A state court decision is an

21 unreasonable application of clearly established Supreme Court precedent within the meaning of
22 28 U.S.C. § 2254(d) “if the state court identifies the correct governing legal principle from [the
23 Supreme] Court’s decisions but unreasonably applies that principle to the facts of the prisoner’s

4

.

1 j

Case 2:16-cv-01886-APG-DJA

Document 35

Filed 10/18/19

Page 5 of 25

1 case.” Id. at 75 (quoting Williams, 529 U.S. at 413). “The ‘unreasonable application’ clause
2 requires the state court decision to be more than incorrect or erroneous. The state court’s

application of clearly established law must be objectively unreasonable.” Id. (quoting Williams,
4 529 U.S. at 409-10) (internal citation omitted).

5

The Supreme Court has instructed that “[a] state court’s determination that a claim lacks

6 merit precludes federal habeas relief so long as ‘fairminded jurists could disagree’ on the
7 correctness of the state court’s decision.” Harrington v. Richter, 562 U.S. 86, 101 (2011) (citing
8 Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). The Supreme Court has stated “that even a

9 strong case for relief does not mean the state court’s contrary conclusion was unreasonable.” Id.
10 at 102 (citing Lockyer, 538 U.S. at 75); see also Cullen v. Pinholster, 563 U.S. 170, 181 (2011)
11 (describing the standard as a “difficult to meet” and “highly deferential standard for evaluating
12 state-court rulings, which demands that state-court decisions be given the benefit of the doubt”
13 (internal quotation marks and citations omitted)).
14 III.

DISCUSSION

15

A.

16

In Ground 3, Grigsby argues that his federal constitutional rights were violated when the

Ground 3

17 State committed prosecutorial misconduct by eliciting answers that bore upon his invocation of
18 the right to remain silent. ECF No. 7 at 10. He explains that the State questioned the arresting
19 officer about whether Grigsby offered a statement expressing surprise at being arrested. Id. at 11.
20 Grigsby asserts that this question implied to the jury that he must be guilty. Id. at 12. The

21 respondents argue that the State’s questions flowed from Grigsby’s cross-examination of the
22 same witness and did not touch upon his right to remain silent. ECF No. 31 at 4. Grigsby rebuts
23 that the officer in question did not apprehend him, so his cross-examination question of that

5

, Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 6 of 25

1 officer did not open the door for the State’s far broader questioning. ECF No. 32 at 6. In
2 Grigsby’s direct appeal, the Supreme Court of Nevada held:
3
4
5
6

Grigsby contends that the prosecution improperly elicited testimony about his post­
arrest silence. We disagree. Questions concerning what a defendant says after his
arrest are generally improper. Morris v. State, 112 Nev. 260, 263-64, 913 P.2d
1264, 1267 (1996) (providing prosecution forbidden from commenting upon
defendant’s post-arrest, pre-Miranda silence). However, Grigsby invited the line
of questioning by examining the witness about Grigsby’s reaction to his arrest. See
Milligan v. State, 101 Nev. 627, 637, 708 P.2d 289, 295-96 (1985). Therefore, the
district court did not err in overruling Grigsby’s objection.

7
8 ECF No. 15-14 at 3-4.
9

Dennis Serna, a special agent with the Federal Bureau of Investigation who worked as a

10 fugitive coordinator, testified that he was tasked with locating Grigsby. ECF No. 13-1 at 28-29.
11 After he was located in Sacramento, Grigsby was taken into custody by a SWAT team. Id. at 36.
12 During cross-examination, Grigsby’s trial counsel questioned Special Agent Serna as follows:
13

Q-

14

A.
QA.
Q.

15
16
17

A.
QA.

And your report indicates that the arrest was effected [sic] without
incident?
Correct.
There were no problems during the arrest?
Correct.
If there had been something, you would have noted that in your
report?
Yes.
Mr. Grigsby didn’t try to flee?
No.

18
19 Id. at 42. During redirect examination, the State followed up with Special Agent Serna:
20

Q.

21
22

A.
Q-

23

A.

Defense counsel asked you some questions about whether or not the
defendant was taken into custody without incident. Do you
remember those questions?
Yes, I do.
If there had been some type of incident, like he had fought back or
something like that, you would have put that in your report?
Absolutely.

6

. Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 7 of 25

1

Q.

2

A.

3
4
Q-

5

Would you also have included in your report if he would have made
statements at the time he was taken into custody?
It [sic], for example, the arresting officer - - because I was still at a
distance still conducting surveillance when the actual officers put
their hands on him. If he had made statements to them, obviously,
I wouldn’t have heard it. And unless they voiced it to me to allow
me to put it in my report, I never got any information like that.
Is there anything in your report, do you recall anything about
whether or not the defendant expressed surprise about being taken
into custody?

6
Id. at 46-47. Grigsby’s trial counsel objected, and the state district court held a bench
7
conference. Id. at 47. The State then continued its questioning:
8
Q.
9
10

A.
Q-

11

A.

Agent Serna, is it reflected in your report at the time the defendant
was taken into custody if he expressed surprise at being arrested?
It’s not reflected in my report.
Is it reflected in your report whether or not the defendant asked why
he was being arrested?
It’s not reflect [sic] in my report.

12 Id. at 47-48.
13

A prosecutor’s comments on a defendant’s failure to testify violate the self-incrimination

14 clause of the Fifth Amendment. Griffin v. California, 380 U.S. 609, 614 (1965). Similarly, the
15 prosecutor may not impeach a defendant with his post -Miranda warnings silence because those
16 warnings carry an implicit “assurance that silence will carry no penalty.” Doyle v. Ohio, 426 U.S.
17 610, 618 (1976) (“‘[I]t it does not comport with due process to pennit the prosecution during the
18 trial to call attention to [a defendant’s] silence at the time of arrest and to insist that because he
19 did not speak about the facts of the case at that time, as he was told he need not do, an
20 unfavorable inference might be drawn as to the truth of his trial testimony.’”). While the
21 prosecutor violates Griffin when it “direct[ly] commentfs] about the defendant’s failure to
22 testily,” it violates Griffin only when it “indirectly] comments about the defendant’s failure to
23 testify] ... ‘if it is manifestly intended to call attention to the defendant’s failure to testily or is

7

. Case 2:16-cv-01886-APG-DJA Document 35

Filed 10/18/19 Page 8 of 25

1 of such a character that the jury would naturally and necessarily take it to be a comment on the
2 failure to testify.’” Hovey v. Ayers, 458 F.3d 892, 912 (9th Cir. 2006) (quoting Lincoln v. Sunn,

807 F.2d 805, 809 (9th Cir. 1987)).
4

Although Grigsby’s trial counsel questioned Special Agent Serna about Grigsby’s

5 conduct following the arrest to demonstrate that Grigsby was cooperative, the State expanded
6 that line of questioning by inquiring about Grigsby’s statements or lack of a statement. See ECF
7 No. 13-1 at 47-48. While the State did not directly comment on Grigsby’s post-arrest silence, it
8 did so indirectly. See Hovey, 458 F.3d at 912.

9

However, “[rjeversal is warranted [for Griffin error] only ‘where such comment is

10 extensive, where an inference of guilt from silence is stressed to the jury as a basis for the
11 conviction, and where there is evidence that could have supported acquittal.” Id. (quoting
12 Anderson v. Nelson, 390 U.S. 523, 524 (1968)); see also Beardslee v. Woodford, 358 F.3d 560,
13 588 (9th Cir. 2003) (“[W]hen the comments are limited in nature and could not have affected the
14 verdict, we have declined to reverse.”); cf Wood v. Ryan, 693 F.3d 1104, 1113 (9th Cir. 2012)
15 (“[PJrosecutorial misconductf ] warrants] relief only if [it] ‘had substantial and injurious effect
16 or influence in determining the jury’s verdict.’” (quoting Brecht v. Abrahamson, 507 U.S. 619,
17 637-38 (1993)). None of these factors is present: the State’s questions to Special Agent Serna
18 regarding Grigsby’s statements were not extensive, the State did not bring up Grigsby’s silence
19 in its closing argument, and there was no direct evidence presented by Grigsby supporting
20 acquittal. Further, the jury was instructed that:

21
22
23

It is a constitutional right of a defendant in a criminal trial that he may not be
compelled to testify. Thus, the decision as to whether he should testify is left to
Mr. Grigsby on the advice and counsel of his attorneys. You must not draw any
inference of guilt from the fact that he does not testify, nor should this fact be
discussed by you or enter into your deliberations in any way.

8

,

Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 9 of 25

1 ECF No. 14-2 at 20. That instruction tends to cure an improper comment by the State. See
2 United States v. Jones, 459 F.2d 47 (9th Cir. 1972).
o

The Supreme Court of Nevada’s ruling was not contrary to, or an unreasonable

4 application of, clearly established federal law as determined by the Supreme Court, and was not
5 based on an unreasonable determination of the facts in light of the evidence. See 28 U.S.C.
6 § 2254(d). I deny Grigsby habeas coipus relief with respect to Ground 3.
7

B.

8

In Ground 6, Grigsby argues that his federal constitutional rights were violated when his

Ground 6

9 trial counsel failed to timely move to suppress evidence recovered in connection with an invalid
10 warrantless search of his domicile. ECF No. 7 at 22. Grigsby explains that the police gained
11 access to his apartment through the consent of his mother, Mildred Grigsby; however, Mildred
12 Grigsby’s consent was invalid because she did not have dominion over his apartment. Id. at 23.
13 The respondents argue that the police seized evidence from Grigsby’s apartment only after a
14 search warrant had been obtained. ECF No. 31 at 9. Grigsby rebuts that the search warrant was
15 obtained, partly, upon the prior search that was conducted based on his mother’s invalid consent.
16 ECF No. 32 at 13.
17

In his state habeas appeal, the Supreme Court of Nevada held:

18

Grigsby argued that the search of his apartment was improper because even though
Mildred was the leaseholder of the apartment, she had no authority to allow police
into his apartment as she did not reside there. The district court rejected his trialcounsel’s claim, determining that Mildred had actual authority to consent to a
search of Grigsby’s apartment and therefore he assumed the risk of Mildred
consenting to a search of the apartment. See Taylor v. State, 114 Nev. 1071, 1079,
968 P.2d 315, 321 (1998). Moreover, the district court concluded, the search
warrant was properly issued based on Tina’s statements to the police and the initial
entry into the apartment was not the “but-for cause” of the discovery of the evidence
in Grigsby’s apartment. Rather, the initial entry into the apartment was simply to
look for Grigsby and the seized evidence was obtained after a search warrant had
issued. Therefore, trial counsel were not ineffective for not seeking to suppress the

19
20
21
22
23

9

Case 2:16-cv-01886-APG-DJA

1

Document 35 Filed 10/18/19 Page 10 of 25

seized evidence. We conclude that the district court did not err by denying this
claim.

2
o

4

ECFNo. 18-13 at 3-4.
Grigsby’s mother Mildred testified at the preliminary hearing that she did not reside in

5 Las Vegas on April 2, 2008 but she was in town on that date and owned a home in Las Vegas.
6 ECF No. 10-2 at 30. She explained that on the evening of April 2, 2008, Grigsby “gave [her] a
7 key to the apartment” and said he would call her later. Id. at 30-31. She did not have a key to

8 Grigsby’s apartment prior to this interaction. Id. at 31. Later that night, she went to Grigsby’s
9 apartment because he failed to call her, and she was concerned about her grandchild. Id. When
10 she arrived at the apartment, the police were there. Id. She spoke to the police and allowed them
11 entry into the apartment. Id. at 31 -32. Detective Laura Anderson testified that Mildred provided
12 the police with a key to the apartment (ECF No, 14-1 at 6, 33), and Mildred signed a “consent to
13 search card” allowing the Las Vegas Metropolitan Police Department to search the apartment for
14 him. ECFNo. 5-1 at 109.
15

Detective Laura Anderson indicated in her report that on April 3, 2008, “at approximately

16 0217 hours,” Detective Williams spoke to Mildred Grigsby. ECF No. 5-2 at 10. Contrary to her
17 testimony at the preliminary hearing, Mildred Grigsby told Detective Williams that Grigsby had
18 called her and asked her to go to his apartment to retrieve something. Id. At 2:25 a.m. On April
19 3, 2008, Sergeant Mike Thompson applied for a telephonic search warrant of Grigsby’s
20 apartment. ECF No. 5-1 at 101. In his telephonic application, Sergeant Thompson indicated that

21 “LVMPD officers knocked on Grigsby’s apartment door but he [sic] did not get an answer. At
22 approximately 0100 hours, Grigsby’s mother arrived at 2068 Nellis #140 and allowed officers to
23 enter the apartment to look for Dennis.” Id. 102. Sergeant Thompson also indicated that

10

Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 11 of 25

1 Grigsby’s wife Tina saw the victim “arguing with her husband” and that “[s]he went inside of
2 [the victim’s] apartment and heard gunshots.” Id. The search warrant was granted. Id. at 103.
Mildred Grigsby testified at the preliminary hearing that her name was on Grigsby’s
4 apartment’s lease. ECF No. 10-2 at 33; see also ECF No. 13-1 at 6, 12 (testimony of Maitee
5 Salado, the property manager of Grigsby’s apartment complex, that Mildred Grigsby was listed
6 as the lessee on Grigsby’s apartment’s rental agreement). Tina testified at trial that while
7 Mildred Grigsby’s name was on the apartment lease, she did not reside there. ECF No. 11-2 at
8 62-63, 65-66. In January 2015, during Grigsby’s state habeas corpus proceedings, Mildred
9 declared that on April 3, 2008, she informed the Las Vegas Metropolitan Police Department that
10 she “did not live at apartment #140”; that she never “informed them that apartment #140, was
11 leased in [her] name”; that she “did not have dominion or actual use of apartment #140, nor
12 property within”; and that “although [she] leased apartment #140 on May 1, 2006, Dennis M.
13 Grigsby .. . had dominion and control over the premises.” ECF No. 5-2 at 112.
14

During his initial interview with his trial counsel, prior to his trial, and during the trial,

15 Grigsby made it clear that he wanted his trial counsel file a motion to suppress the evidence
16 found in his apartment due to his mother’s alleged invalid consent to search his apartment. See
17 ECF No. 14-3 at 15 (statement by Grigsby to the state district court during the trial that: “I’d just
18 like the opportunity to preserve some possible appellate issues for the record. And the issues are
19 that counsel knew ahead of time before very early in pretrial about the issues of suppression at
20 Apartment No. 140 at 2068 North Nellis”); ECF No. 5-2 at 126 (letter from Grigsby to his trial
21 counsel dated a week before his trial began “asserting] that a suppression motion be filed
22 regarding the search of [his] apartment” because “[his] mom rented the apartment for [him]
23 because [he] was a felon” and explaining that his mother “never lived at my apartment”); ECF

11

Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 12 of 25

1 No. 5-2 at 80 (internal memo of the Office of the Special Public Defender where Grigsby
2 “questioned] the validity of the search conducted on his mother’s apartment” during his initial
3 interview). However, his trial counsel did not file a motion to suppress.
4

In Strickland v. Washington, the Supreme Court propounded a two-prong test for analysis

5 of claims of ineffective assistance of counsel, requiring the petitioner to demonstrate (1) that the
6 attorney’s “representation fell below an objective standard of reasonableness,” and (2) that the
7 attorney’s deficient performance prejudiced the defendant such that “there is a reasonable
8 probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
9 been different.” 466 U.S. 668, 688, 694 (1984). A court considering a claim of ineffective
10 assistance of counsel must apply a “strong presumption that counsel’s conduct falls within the
11 wide range of reasonable professional assistance.” Id. at 689. The petitioner’s burden is to show
12 “that counsel made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed
13 the defendant by the Sixth Amendment.” Id. at 687. And, to establish prejudice under
14 Strickland, it is not enough for the habeas petitioner “to show that the errors had some
15 conceivable effect on the outcome of the proceeding.” Id. at 693. Rather, the errors must be “so
16 serious as to deprive the defendant of a fair trial, a trial whose result is reliable.” Id. at 687.
17

Where a state district court previously adjudicated the claim of ineffective assistance of

18 counsel under Strickland, establishing that the decision was unreasonable is especially difficult.
19 See Harrington, 562 U.S. at 104-05. In Harrington, the Supreme Court instructed:
20
21
22
23

Establishing that a state court’s application of Strickland was unreasonable under
§ 2254(d) is all the more difficult. The standards created by Strickland and
§ 2254(d) are both “highly deferential,” [Strickland, 466 U.S. at 689]; Lindh v.
Murphy, 521 U.S. 320, 333, n.7,117 S.Ct. 2059,138 L.Ed.2d481 (1997), and when
the two apply in tandem, review is “doubly” so, Knowles[ v. Mirzayance, 556 U.S.
Ill, 123 (2009)]. The Strickland standard is a general one, so the range of
reasonable applications is substantial. 556 U.S., at 123, 129 S.Ct. at 1420. Federal
habeas courts must guard against the danger of equating unreasonableness under
12

Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19

1
2

Page 13 of 25

Strickland with unreasonableness under § 2254(d). When § 2254(d) applies, the
question is not whether counsel’s actions were reasonable. The question is whether
there is any reasonably argument that counsel satisfied Strickland's deferential
standard.

4 Harrington, 562 U.S. at 105; see also Cheney v. Washington, 614 F.3d 987, 995 (9th Cir. 2010)
5 (“When a federal court reviews a state court’s Strickland determination under AEDPA, both

6 AEDPA and Strickland’s deferential standards apply; hence, the Supreme Court’s description of
7 the standard as ‘doubly deferential.’”).
8

In analyzing a claim of ineffective assistance of counsel under Strickland, a court may

9 first consider either the question of deficient performance or the question of prejudice; if the
10 petitioner fails to satisfy one element of the claim, the court need not consider the other. See
11 Strickland, 466 U.S. at 697.
12

In order to determine whether his trial counsel was deficient for not filing a motion to

13 suppress, I must first assess whether there was a violation of Grigsby’s Fourth Amendment right.
14 The Fourth Amendment protects individuals from “unreasonable searches and seizures.” U.S.
15 Const, amend. IV. The Fourth Amendment protects an individual’s reasonable expectation of
16 privacy in the area searched or the items seized. California v. Greenwood, 486 U.S. 35, 39
17 (1988). When an individual has a reasonable expectation of privacy, law enforcement may not
18 conduct a search absent consent, a search warrant, or an exception to the warrant requirement.
19 See Kentucky v. King, 563 U.S. 452, 459 (2011); Schneckloth v. Bustamonte, 412 U.S. 218, 219
20 (1973).

21

The State must establish the effectiveness of a third party’s consent. Illinois v. Rodriguez,

22 497 U.S. 177, 181 (1990). “[Cjonsent to a search must be made by an individual with common
23 authority over the property.” United States v. Kim, 105 F.3d 1579, 1582 (9th Cir. 1997). The

13

Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 14 of 25

1 Supreme Court has explained that “common authority” is not synonymous with property
2 ownership:

4
5
6
7
8

Common authority is, of course, not to be implied from the mere property interest
a third party has in the property. The authority which justifies the third-party
consent does not rest upon the law of property, with its attendant historical and legal
refinements, see Chapman v. United States, 365 U.S. 610, 81 S.Ct. 776, 5 L.Ed. 2d
828, (1961) (landlord could not validly consent to the search of a house he had
rented to another), Stoner v. California, 376 U.S. 483, 84 S.Ct. 889, 11 L.Ed. 2d
856 (1964) (night hotel clerk could not validly consent to search of customer’s
room) but rests rather on mutual use of the property by persons generally having
joint access or control for most purposes, so that it is reasonable to recognize that
any of the co-inhabitants has the right to permit the inspection in his own right and
that the others have assumed the risk that one of their number might permit the
common area to be searched.

9
10 United States v. Matlock, 415 U.S. 164, 171 n.7 (1974). The Supreme Court has further noted
11 that:
12
13

the “right” to admit the police to which Matlock refers is not an enduring and
enforceable ownership right as understood by the private law of property, but is
instead the authority recognized by customary social usage as having a substantial
bearing on Fourth Amendment reasonableness in specific circumstances.

14
15 Georgia v. Randolph, 547 U.S. 103, 120-21 (2006).
16

The Ninth Circuit evaluates three factors in assessing whether a third party effectively

17 consented to a search: “(1) whether the third party has an equal right of access to the premises
18 searched; (2) whether the suspect is present at the time the third party consent is obtained; and
19 (3) if so, whether the suspect actively opposes the search.” United States v. Warner, 843 F.2d
20 401, 403 (9th Cir. 1988); see also United States v. Impink, 728 F.2d 1228, 1233 (9th Cir. 1984)
21 (explaining that “Matlock . . . leaves open three possible variables in the consent calculus. First,
22 the third party may not generally have ‘joint access .. . for the most purposes’; his right of access
23 may be narrowly prescribed. Second, the objector may not be an ‘absent.. . person’; he may be

14

v

, Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 15 of 25

1 present at the time third party consent is obtained. Finally, the objector may not simply be
2 ‘nonconsenting’; he may actively oppose the search”). The Ninth Circuit “cases upholding
o

searches generally rely on the consent-giver’s unlimited access to property to sustain the search.”

4 Kim, 105 F.3d at 1582.
5

Although Mildred Grigsby did not reside at the apartment, she was the sole person on the

6 apartment’s lease and, importantly, she had a key to the apartment. See United States v. Guzman,
7 852 F.2d 1117, 1122 (9th Cir. 1988) (“Beyond the other evidence of her status as [the
8 defendant]’s wife, and lessee and sometime resident of the apartment, her possession of a key in
9 itself has special significance.”); United States v. Gulma, 563 F.2d 386, 389 (9th Cir. 1977)
10 (“Special significance may be attributed to [the defendant] having entrusted the motel room key
11 to [the third-party consenter].”). Based on these facts, it appears that Mildred Grigsby had “joint
12 access or control for most purposes” over the apartment. Matlock, 415 U.S. at 171 n.7. And
13 Mildred Grigsby’s consent was to search for Grigsby only. See ECF No. 5-1 at 109. The
14 evidence seized from the apartment was seized pursuant to a search warrant. See ECF No. 5-1 at
15 101-103; see also King, 563 U.S. at 459 (allowing a search based on a search warrant). Because
16 there was nothing seized from the consent search and because Grigsby does not allege any
17 deficiency regarding the search warrant, there was nothing to suppress. And contrary to
18 Grigsby’s contention that the search warrant was based on the previous consent search, it appears
19 that the search warrant was based primarily on Tina’s statement to the police that she saw the
20 victim “arguing with her husband” and that “[s]lre went inside of [the victim’s] apartment and
21 heard gunshots.” Id. at 102.
22

Because Mildred Grigsby’s consent for the police to search the apartment was valid and

23 Grigsby’s Fourth Amendment rights were not violated, there was nothing to suppress. Thus,

15

,

. Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 16 of 25

1 Grigsby’s trial counsel’s “representation [did not] f[a]ll below an objective standard of
2 reasonableness” by not filing a motion to suppress. See Strickland, 466 U.S. at 688. The
3 Supreme Court of Nevada’s ruling that Grigsby’s “trial counsel were not ineffective for not
4 seeking to suppress the seized evidence” (ECF No. 18-13 at 4) was not contrary to, or an
5 unreasonable application of, clearly established federal law as determined by the Supreme Court,
6 and was not based on an unreasonable determination of the facts in light of the evidence. See 28
7 U.S.C. § 2254(d). I deny Grigsby habeas corpus relief with respect to Ground 6.
8

C.

9

In Ground 7, Grigsby argues that his federal constitutional rights were violated when his

Ground 7

10 appellate counsel failed to raise a claim of prosecutorial misconduct in his direct appeal. ECF
11 No. 7 at 30. He explains that the State improperly instructed the jury on an unsettled, unused
12 instruction. Id. at 35. Grigsby also alleges his appellate counsel did not obtain copies of the guilt
13 phase transcripts in order to see that Grigsby’s trial counsel properly preserved this issue for
14 appeal. Id. at 30-31. The respondents argue that Grigsby’s appellate counsel had no basis to
15 challenge the comments made by the State because the comments were a correct statement of the
16 law. ECF No. 31 at 9.
17

In Grigsby’s state habeas appeal, the Supreme Court of Nevada held:

18

Grigsby argued that appellate counsel was ineffective for not challenging the
prosecutor’s comment to the jury that a guilty verdict is permissible so long as the
determination of guilt is unanimous even if the jurors were not unanimous as to the
theory of guilt, as the jury was not instructed on that legal principle before
deliberation. Because the prosecutor’s comment was a correct statement of the law,
see Schad v. Arizona, 501 U.S. 624, 631 (1991); Holmes v. State, 114 Nev. 1357,
1364, n.4, 972 P.2d 337, 342 n.4 (1998), Grigsby failed to demonstrate that
appellate counsel was ineffective for failing to challenge the comment on appeal.
Accordingly, the district court properly denied this claim.

19
20
21
22

23 ECF No. 18-13 at 4.

16

Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 17 of 25

1

During its closing argument, the State argued the following:

2

The next instruction talks about theories of first degree murder. If you go back and
deliberate and, say, six of you find beyond a reasonable doubt that [you] believe
that he’s guilty under the theory of lying in wait. And six of you say to yourselves:
You know what, I think he’s guilty, but I don’t think it’s premeditation and
deliberation. As long as you all agree on a theory of first degree murder, then he
can be guilt of first degree murder.

4
5

6 ECF No. 14-3 at 48-49. Grigsby’s trial counsel asked for a bench conference, which was held.
7 Id. at 49. The state district court then told the State that it could proceed. Id. The State
8 continued: “So you don’t have to agree on the theory, as long as you believe beyond a reasonable
9 doubt one of those two theories, either lying in wait, or murder that is deliberate and done with
10 premeditation.” Id.
11

After the jury started deliberations, a hearing was held outside the presence of the jury to

12 discuss a jury question. ECF No. 15-1 at 2. During that hearing, the state district court stated:
13
14
15
16
17
18
19

Next counsel will recall during the omission portion of our guilt phase of
this trial that it was in closing made mention by [the State] that the jury could find
guilt of first degree murder by either of two theories, and it could be a combination
of the jurors feeling one way or the other to the two theories and if they were
unanimous in finding a theory, then it would be binding.
[Grigsby’s trial counsel] preserved the record for appeal. He expressed it
freely at the bench and I allowed it to go forward and I had indicated we would
supplement the instructions. We didn’t get a supplement to the instructions into the
jury at the outset when they did adjourn to confer the matter, and we discussed it in
chambers after a copy was delivered to my chambers, and I felt that the agreement
was to send this in at the time after six or eight hours of deliberation. It might put
a little undue emphasis. It might be unfair so I have it in my hand. It will be the
next Court’s exhibit, but we did not give this over to the jury.

20
21 Id. Grigsby’s trial counsel then explained:
22
23

At the bench we did object to them arguing that on the basis that there was
no jury instruction to that effect and although we did concede that if an instruction
had been offered that the Court probably would have allowed that instruction under
the case of Shad (phonetic) versus Arizona, but if they had offered it when we
17

..

1
2

4
5

. Case 2:16-cv-01886-APG-DJA

Document 35

Filed 10/18/19

Page 18 of 25

settled jury instructions, we would have objected to it at that time and are putting
on the record now our objection to that instruction as basically doing away with the
requirement that a juiy be unanimous and pick and choose liability in order to
convict someone of a first degree murder charge when there are more than one
theory presented.
We would request the objection preserved on the record, and we did object
timely when the State argued it to the jury and that the juiy did not receive an
instruction they took back in the juiy room with that language in it.

6 Id. at 3. The state district court then stated:
7
8

Okay. I’ll not mention the failure to incorporate this additional instruction. It was
merely an oversight. There was no intent I don’t think, and I would point out that
I think the status of the law in Nevada is that these alternate considerations can be
considered, these alternate theories so that’s why I allowed it to go forward.

9
10 Id.
11

In order to prevail on an ineffective assistance of appellate counsel claim, Grigsby “must

12 first show that his counsel was objectively unreasonable ... in failing to find arguable issues on
13 appeal—that is, that counsel unreasonably failed to discover nonfrivolous issues and to file a
14 merits brief raising them.” Smith v. Robbins, 528 U.S. 259, 285 (2000). If Grigsby is successful
15 in meeting that burden, “he then has the burden of demonstrating prejudice. That is, he must
16 show a reasonable probability that, but for counsel’s unreasonable failure to file a merits brief, he
17 would have prevailed on his appeal.” Id.
18

In order to determine whether his appellate counsel acted objectively unreasonably in

19 failing to raise this claim, I must first assess whether the State’s comments amounted to
20 prosecutorial misconduct. “[T]he touchstone of due process analysis in cases of alleged

21 prosecutorial misconduct is the fairness of the trial, not the culpability of the prosecutor.” Smith
22 v. Phillips, 455 U.S. 209, 219 (1982). “The relevant question is whether the prosecutors’
23 comments ‘so infected the trial with unfairness as to make the resulting conviction a denial of

18

Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 19 of 25

1 due process.’” Darden v. Wainwright, All U.S. 168, 181 (1986) (quoting Donnelly v.
2 DeChristoforo, 416 U.S. 637, 643 (1974)). A court must judge the remarks “in the context in
which they are made.” Boyde v. California, 494 U.S. 370, 385 (1990).
4

The State charged Grigsby with murder with the use of a deadly weapon, committed by

5 either of two theories: “(1) willful, deliberate and premeditated; and/or (2) committed by
6 Defendant lying in wait to commit the killing.” ECF No. 10-9 at 2-3. Importantly, a jury need
7 only agree that a defendant committed the offense, and jurors may generally base their
8 conclusions on different theories of both the actus reus and mens rea. Schad v. Arizona, 501 U.S.
9 624, 632 (1991) (plurality opinion); see also Mason v. State, 118 Nev. 554, 558, 51 P.3d 521,
10 524 (2002) (“[Appellant] argues that the jury was improperly instructed that it need not agree
11 unanimously on the theory of guilt, but we have repeatedly approved this statement of law.”);
12 Walker v. State, 113 Nev. 853, 870, 944 P.2d 762, 773 (1997) (“[W]e conclude that the trial
13 court did not err in instructing the jury that it did not have to unanimously agree upon a theory of
14 murder.”).
15

Because the jury only needed to agree that Grigsby committed the offense of murder with

16 the use of a deadly weapon, it was proper for the jurors to have potentially based their
17 conclusions on different theories of mens rea—either willful, deliberate and premeditated murder
18 or murder committed by “watching, waiting, and concealment. . . with the intention of inflicting
19 bodily injury upon such person or of killing such person.” Moser v. State, 91 Nev. 809, 813, 544
20 P.2d 424, 426 (1975). Accordingly, it was not improper for the State to argue that “[s]o you
21 don’t have to agree on the theory, as long as you believe beyond a reasonable doubt one of those
22 two theories, either lying in wait, or murder that is deliberate and done with premeditation.” ECF
23 No. 14-3 at 49.

19

, Case 2:16-cv-01886-APG-DJA

1

Document 35

Filed 10/18/19

Page 20 of 25

Because the State’s comment was not improper and did not impact “the fairness of

2 [Grigsby’s] trial,” Smith, 455 U.S. at 219, Grigsby has not shown that his appellate counsel was

“objectively unreasonable ... in failing to” argue this issue on appeal. Smith, 528 U.S. at 285;
4 see also Jones v. Barnes, 463 U.S. 745, 753 (1983) (“A brief that raises eveiy colorable issue

5 mns the risk of burying good arguments.”). Therefore, the Supreme Court of Nevada’s ruling
6 that “Grigsby failed to demonstrate that appellate counsel was ineffective for failing to challenge
7 the comment on appeal,” ECF No. 18-13 at 4, was not contrary to, or an unreasonable
8 application of, clearly established federal law as determined by the Supreme Court, and was not

9 based on an unreasonable determination of the facts in light of the evidence. See 28 U.S.C.
10 § 2254(d). I deny Grigsby habeas corpus relief with respect to Ground 7.
11

D.

12

In Ground 7, Grigsby argues that his federal constitutional rights were violated when his

Ground 8

13 appellate counsel failed to raise a claim regarding proper jury instructions in his direct appeal.
14 ECF No. 7 at 37. Specifically, following his trial counsel’s objection to the State’s closing
15 argument regarding the two theories upon which the jury could find that Grigsby was guilty of
16 murder, Grigsby argues that the state district court indicated that it would give the jury a
17 supplemental instruction, but it failed to do so before deliberations began. Id. at 39. Grigsby also
18 argues that the state district court erred in submitting the supplemental instruction as an exhibit
19 to the jury after deliberations had begun. Id. at 40.
20

In his state habeas appeal, the Supreme Court of Nevada held:

21

Grigsby argues that appellate counsel was ineffective for not raising a claim that
the district court erred by providing a supplemental instruction to the jury several
hours after deliberations had begun. However, the record shows that the district
court did not give the jury a supplemental instruction after deliberations began.
Because Grigsby failed to show that appellate counsel was ineffective for not
raising this claim on appeal, the district court properly denied this claim.

22
23

20

t

t

i

. Case 2:16-cv-01886-APG-DJA

Document 35

Filed 10/18/19

Page 21 of 25

1 ECFNo. 18-13 at 4-5.
2

To the extent that Grigsby argues that the state district court erred in sending a
supplemental instruction to the jury once deliberations had already begun (see ECF No. 7 at 40),

4 that argument is belied by the record. The state district judge indicated that he had the

5 supplemental instruction “in my hand. It will be the next Court’s exhibit, but we did not give
6 this over to the jury.” ECF No. 15-1 at 2 (emphasis added). The judge’s indication that the
7 supplemental instruction was marked as an exhibit does not mean that it was admitted or
8 submitted to the jury.

9

Grigsby next argues the state district court failed to properly instruct the jury. Again, the

10 State argued that “[t]he next instruction talks about theories of first degree murder” and then
11 explained that the jury did not “have to agree on the theory, as long as [they] believe[d] beyond a
12 reasonable doubt one of th[e] two theories.” ECF No. 14-3 at 48-49. However, there was no
13 alternate theory jury instruction, which, according the state district court, appeared to “merely
14 [be] an oversight.” ECF No. 15-1 at 3. Nevada Revised Statute § 175.161(1) allows the state
15 district court to “giv[e] . . . further instructions which may become necessary by reason of the
16 argument.” That is what the judge intended to do: “I had indicated we would supplement the
17 instructions.” ECF No. 15-1 at 2. But no supplementation was accomplished before the jury
18 began deliberations. See id. Because “arguments of counsel cannot substitute for instructions by
19 the court,” Taylor v. Kentucky>, 436 U.S. 478, 488-89 (1978), and because § 175.161(1) provides
20 that “no charge or instructions may be given to the jury otherwise than in writing,” the state

21 district court arguably should have supplemented the jury instructions with an alternate theory
22 instruction prior to deliberations, since the State brought up the law on the use of alternate
23 theories in its closing argument.

21

, Case 2:16-cv-01886-APG-DJA

1

Document 35

Filed 10/18/19

Page 22 of 25

But even if Grigsby’s appellate counsel erred in failing to bring a claim on direct appeal

2 regarding the trial court’s failure to properly instruct the jury, Grigsby cannot meet his burden of

also demonstrating prejudice. Smith, 528 U.S. at 285. Grigsby’s trial counsel indicated that he
4 “would have objected to” an alternate theory instruction if the State “had offered it when we

5 settled jury instructions.” ECF No. 15-1 at 2. His trial counsel explained that the alternate theory
6 instruction “basically [does] away with the requirement that a juiy be unanimous and pick and
7 choose liability in order to convict someone of a first degree murder charge when there [is] more

8 than one theory presented.” Id. Therefore, the State’s oversight in not offering the alternate
9 theory instruction and the state district court’s failure to supplement the instructions benefitted
10 Grigsby: an alternate theory instruction would have clarified—more so than was already done by
11 the State during closing arguments—that the jurors did not have to come to a unanimous
12 decision regarding the theory of first-degree murder. And even if the alternate theory instruction
13 would have been beneficial to Grigsby, it is mere speculation that Grigsby “would have
14 prevailed on his appeal” if his appellate counsel would have included a claim regarding the lack
15 of a supplemental instruction. Smith, 528 U.S. at 285; see also Djerf v. Ryan, 931 F.3d 870, 881
16 (9th Cir. 2019) (“[Pjrejudice is not established by mere speculation.”).
17

The Supreme Court of Nevada’s ruling was not contrary to, or an unreasonable

18 application of, clearly established federal law as determined by the Supreme Court, and was not
19 based on an unreasonable determination of the facts in light of the evidence. See 28 U.S.C.
20 § 2254(d). I deny Grigsby habeas corpus relief with respect to Ground 8.

21

E.

22

In Ground 10, Grigsby argues that the cumulative errors of the previous grounds warrant

Ground 10

23 reversal of his convictions. ECF No. 7 at 46. In his state habeas appeal, the Supreme Court of

22

*.

» »

. Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 23 of 25

1 Nevada held, “[b]ecause Grigsby did not demonstrate error, his contention that cumulative error
2 requires reversal of his conviction and sentence lacks merit. Therefore, the district court
properly denied this claim.” ECF No. 18-13 at 5 n.2.
4

“Cumulative error occurs when ‘although no single trial error examined in isolation is

5 sufficiently prejudicial to warrant reversal, the cumulative effect of multiple errors [has] still
6 prejudice^] a defendant.’” Wooten v. Kirkland, 540 F.3d 1019, 1022 (9th Cir. 2008) (quoting
7 Whelchel v. Washington, 232 F.3d 1197, 1212 (9th Cir. 2000)) (alterations in original). I have
8 identified only two potential errors: the State’s indirect comment regarding Grigsby’s silence at
9 the time of his arrest, which did not amount to reversible error, and the fact that the state district
10 court could have supplemented the jury instructions, which did not prejudice Grigsby. The
11 cumulative effect of these two minor errors did not prejudice Grigsby. Wooten, 540 F.3d at 1022.
12 Therefore, the Supreme Court of Nevada’s ruling was not contrary to, or an unreasonable
13 application of, clearly established federal law as determined by the Supreme Court, and was not
14 based on an unreasonable determination of the facts in light of the evidence. See 28 U.S.C.
15 § 2254(d). I deny Grigsby habeas corpus relief with respect to Ground 10.
16

F.

17

Grigsby requested an evidentiary hearing. ECF No. 32 at 1. “[T]he decision to grant an

Evidentiary Hearing

18 evidentiary hearing [is] generally left to the sound discretion of district courts.” Schriro v.
19 Landrigan, 550 U.S. 465, 473 (2007) (citing 28 U.S.C. § 2254, Rule 8(a) (“[T]he judge must
20 review the answer [and] any transcripts and records of state-court proceedings ... to determine
21 whether an evidentiary hearing is warranted”)). “In deciding whether to grant an evidentiary
22 hearing, a federal court must consider whether such a hearing could enable an applicant to prove
23 the petition’s factual allegations, which, if true would entitle the applicant to federal habeas

23

•

, Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 24 of 25

1 relief.” Id. at 474. And “[i]t follows that if the record . . . otherwise precludes habeas relief, a
2 district court is not required to hold an evidentiary hearing.” Id.
3

Grigsby fails to explain what evidence would be presented at an evidentiary hearing. I

4 have determined that Grigsby is not entitled to relief for Grounds 3, 6, 7, 8, and 10, and neither
5 further factual development nor any evidence that may be proffered at an evidentiary hearing
6 would affect my reasons for denying those grounds. I deny Grigsby’s request for an evidentiary
7 hearing.
8 IV.

CERTIFICATE OF APPEALABILITY

9

The standard for the issuance of a certificate of appealability requires a “substantial

10 showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c). The Supreme Court has
11 interpreted 28 U.S.C. § 2253(c) as follows:
12
13

Where a district court has rejected the constitutional claims on the merits, the
showing required to satisfy § 2253(c) is straightforward: The petitioner must
demonstrate that reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.

14
15 Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also James v. Giles, 221 F.3d 1074, 1077-79
16 (9th Cir. 2000). A certificate of appealability is unwarranted. I deny Grigsby a certificate of
17 appealability.
18 V.

CONCLUSION

19

I THEREFORE ORDER that the Petition for a Writ of Habeas Corpus (ECF No. 7) is

20 DENIED.
21

I FURTHER ORDER that Grigsby is denied a certificate of appealability.

22
23

24

Case 2:16-cv-01886-APG-DJA Document 35 Filed 10/18/19 Page 25 of 25

1

I FURTHER ORDER that, under Federal Rule of Civil Procedure 25(d), the Clerk of

2 Court is directed to substitute Brian E. Williams Sr. for Dwight Neven as the respondent warden
3 on the docket for his case.
4

I FURTHER ORDER that the Clerk of the Court is directed to enter judgment

5 accordingly.
6

Dated: October 18, 2019.

7
8

ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23

25

IN THE SUPREME COURT OF THE STATE OF NEVADA
No. 68783

DENNIS MARC GRIGSBY,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

SEP 2 2 2016
TRACiE K. UNDEMAN
CLERK Of SUPREME COURT
by

ORDER DENYING REHEARING
Rehearing denied. NRAP 40(c).
It is so ORDERED.

UUl

, J.

Cherry
/

J.
Douglas

cc:

Supreme Court
OF

Nevada
(O) 1947A

cz

Gibbons

Hon. Kathleen E. Delaney, District Judge
Dennis M. Grigsby
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

CHIEF depu;frcLERK

\)

IN THE SUPREME COURT OF THE STATE OF NEVADA

DENNIS MARC GRIGSBY,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

No. 68783

JUN 1 7 2016
TRSCfe K. LINDEMAN
CUE!
BY

CHI!

ORDER OF AFFIRMANCE
This is a pro se appeal from a district court order denying a
postconviction petition for a writ of habeas corpus.

Eighth Judicial

District Court, Clark County; Kathleen E. Delaney, Judge.
In his pro se postconviction petition, appellant Dennis Marc
Grigsby argued that trial and appellate counsel were ineffective on three
grounds.1

To prevail on a claim of ineffective assistance of counsel, a

petitioner must show that counsel’s performance was deficient because it
fell below an objective standard of reasonableness and the deficiency
prejudiced the defense.

Strickland v. Washington, 466 U.S. 668, 687

(1984). We give deference to the court’s factual findings if supported by

xThe district court appointed counsel to represent Grigsby in the
postconviction proceeding. See NRS 34.750. Subsequently, Grigsby filed a
motion to represent himself with standby counsel. The district court
granted the motion in part, allowing Grigsby to represent himself without
standby counsel.

Supreme Court
OF

Nevada
(O) 1947A

%

e.v\
07&

substantial evidence and not clearly erroneous but review the court’s
application of the law to those facts de novo. Lader v. Warden, 121 Nev.
682, 686, 120 P.3d 1164, 1166 (2005).
First, Grigsby argued that trial counsel were ineffective for
not seeking to suppress evidence collected during an unlawful search of
his residence. In late March 2008, Grigsby kicked his wife, Tina Grigsby,
out of their apartment because he believed that she was dating another
man.

Several days later, Tina moved in with her boyfriend, Anthony

Davis, who lived in the same apartment complex as Grigsby. On the night
of April 2, 2008, Grigsby got into an argument with Davis outside of Davis’
apartment. Tina heard the exchange from inside Davis’ apartment. The
argument ceased after a few minutes; Tina heard gunshots about 10 to 15
minutes later. When the police arrived shortly thereafter, she relayed this
information to police officers, who knocked on Grigsby’s door. There was
no answer. While police were still investigating the crime scene, Grigsby’s
mother, Mildred Grigsby, appeared, asking to gain entry into Grigsby’s
apartment to retrieve unidentified items. She was not allowed into the
apartment but provided a key, which Grigsby had given her, to police
officers so that they could determine if Grigsby was in the apartment; he
was not in the residence,

Subsequently, the police secured a search

warrant, searched Grigsby’s apartment, and seized several items.
Grigsby argued that the search of his apartment was improper
because even though Mildred was the leaseholder of the apartment, she
had no authority to allow police into his apartment as she did not reside
there. The district court rejected his trial-counsel claim, determining that
Mildred had actual authority to consent to a search of Grigsby’s apartment

Supreme Court
of

Nevada
(O) 1947A

2

and therefore he assumed the risk of Mildred consenting to a search of the
apartment. See Taylor v. State, 114 Nev. 1071, 1079, 968 P.2d 315, 321
(1998).

Moreover, the district court concluded, the search warrant was

properly issued based on Tina’s statements to the police and the initial
entry into the apartment was not the “but-for cause” of the discovery of the
evidence in Grigsby’s apartment.

Rather, the initial entry into the

apartment was simply to look for Grigsby and the seized evidence was
obtained after a search warrant had issued. Therefore, trial counsel were
not ineffective for not seeking to suppress the seized evidence.

We

conclude that the district court did not err by denying this claim.
Second, Grigsby argued that appellate counsel was ineffective
for not challenging the prosecutor’s comment to the jury that a guilty
verdict is permissible so long as the determination of guilt is unanimous
even if the jurors were not unanimous as to the theory of guilt, as the jury
was not instructed on that legal principle before deliberations. Because
the prosecutor’s comment was a correct statement of the law, see Schad v.
Arizona, 501 U.S. 624, 631 (1991); Holmes v. State, 114 Nev. 1357, 1364,
n.4, 972 P.2d 337, 342 n.4 (1998), Grigsby failed to demonstrate that
appellate counsel was ineffective for failing to challenge the comment on
appeal. Accordingly, the district court properly denied this claim.
Third, Grigsby argued that appellate counsel was ineffective
for not raising a claim that the district court erred by providing a
supplemental instruction to the jury several hours after deliberations had
begun. However, the record shows that the district court did not give the
jury a supplemental instruction after deliberations began.

Supreme Court
of

Nevada
(O) I947A

3

Because

Grigsby failed to show that appellate counsel was ineffective for not
raising this claim on appeal, the district court properly denied this claim.
Having considered Grigsby’s claims and concluded that they
lack merit, we
ORDER the judgpgnt of the district court AFFIRMED.2

, JDouglas
*

J.

, J.
Gibbons

Cherry

cc:

Hon. Kathleen E. Delaney, District Judge
Dennis M. Grigsby
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

2Because Grigsby did not demonstrate error, his contention that
cumulative error requires reversal of his conviction and sentence lacks
merit. Therefore, the district court properly denied this claim. We further
conclude that the district court did not err by denying Grigsby’s petition
without conducting an evidentiary hearing. See Mann v. State, 118 Nev.
351, 354, 46 P.3d 1228, 1239 (2002) (observing that a postconviction
petitioner is entitled to evidentiary hearing when the petitioner asserts
claims supported by specific factual allegations not belied by the record
that, if true, would entitle him to relief).

Supreme Court
of

Nevada
(O) 1947A

4

Electronically Filed

07/30/2015 04:20:57 PM
1

FFCL

2

CLERK OF THE COURT

3

DISTRICT COURT

4

CLARK COUNTY, NEVADA

5
6

THE STATE OF NEVADA,
Plaintiff,

7
8
9

)
)
)
)

vs.

)

)
)
)
)
)
)

DENNIS MARC GRIGSBY,
#1813660

10

Defendant.

11
12

FINDINGS OF FACT. CONCLUSION OF LAW AND
ORDER DENYING SUPERSEDING PROPER PERSON PETITION
FOR WRIT OF HABEAS CORPUS (POSTCONVICTIONI

13
14

I.

15

PROCEDURAL HISTORY

16
17
18
19

Case No.: 08C246709
Dept. No.: XXV

On February 4, 2009, Petitioner was convicted of First Degree Murder with Use of a
Deadly Weapon. Immediately following Petitioner’s conviction, the State filed a Second
Amended Information and again charged Petitioner with Possession of a Firearm by Ex-Felon.

20
21
22
>
in

Z

.

23

ill

The jury reconvened and found Petitioner guilty of Possession of Firearm by Ex-Felon. On
February 5, 2009, the jury set Petitioner’s penalty as Life in prison without the possibility of
parole.

< yj x

III [E d

On March 19, 2009, Petitioner was sentenced to a term of life in prison without
25

possibility of parole for the charge of First Degree Murder with Use of a Deadly Weapon, with

26
<

27
28

a consecutive term of 60 to 240 months for the deadly weapon enhancement. On the charge of
Possession of a Firearm by Ex-Felon, Petitioner was sentenced to 16 to 72 months, to run
concurrent to his sentence on the murder charge. On April 14, 2009, Petitioner filed an appeal.

1

On September 14, 2011, the Nevada Supreme Court affirmed the Judgment of Conviction, and

2
remittitur issued on October 10, 2011.
3
4
5
6
7

On January 20, 2012, Petitioner filed a pro per Petition for Writ of Habeas Corpus, a
Motion for Leave to Proceed in Forma Pauperis, and a Motion for Appointment of Counsel anc
Request for Evidentiary Hearing. On March 7, 2012, the State filed a Response to Petitioner’s
Petition. On March 12, 2012, the Court granted Petitioner’s Motion to Appoint Counsel.

8
9

Thereafter, Karen Connelly, Esq. confirmed as Petitioner’s first counsel on March 21, 2012. On

10

April 18, 2012, Ms. Connelly withdrew as counsel and Terrence Jackson, Esq. confirmed as

11

Petitioner’s second counsel. Mr. Jackson filed a Supplement to Petitioner’s Petition on

12

November 29, 2012, to which the State filed a response on February 6, 2013. Petitioner filed a

13

Reply on March 5, 2013.

14
15

On January 2, 2013, Petitioner filed a pro per Motion to Dismiss Counsel. On January

16

18, 2013, the State filed an Opposition. Petitioner’s motion was denied on January 28, 2013.

17

Mr. Jackson joined in Petitioner’s motion on March 11,2013, citing irreconcilable differences.

18

The State took no position on these motions and on April 1, 2013, the court granted the motion.

19
20

On April 2, 2013, Petitioner filed a First Amended Pro Per Petition for Writ of Habeas

21

Corpus. Petitioner filed a supplement on April 11, 2013. Petitioner then filed a Second

22

Amended Pro Per Petition on April 24, 2013. The State filed a Response on May 7, 2013 and

23

the district court granted Petitioner’s request for an Evidentiary Hearing on May 15, 2013 and

SStE

24

set the Evidentiary Hearing for the date of August 16, 2013.

2ii

25

i5g

26

2

27

Grant of Evidentiary Hearing. On June 4, 2013, State filed a Response. The Court granted

28

Petitioner’s motion on June 6, 2013 but the Court noted that Petitioner previously had counsel

>

Ui

3OK

m XL Cl

i-

On May 20, 2013, Petitioner filed a document entitled Motion to Appoint Counsel Upor

and requested his previous counsel withdraw. On June 17,2013, Carmine Colucci, Esq.

1

confirmed as counsel; however, due to a conflict between Petitioner and Mr. Colucci, Tom

2
Ericsson, Esq. subsequently confirmed as Petitioner’s third counsel on June 26, 2013. On June
3
4

26, 2013, the State requested that Petitioner file a superseding brief to encompass all of the

5

issues due to the numerous supplemental briefs filed in this case. At a status check on August 7

6

2013, the Evidentiary Hearing set for August 16, 2013 was vacated as defense counsel

7

requested additional time.

8
9

On December 11,2013, Eric Bryson, Esq. filed a Motion to Associate Counsel to allow

10

Chandler Parker, Esq. to assist with the Petition pro hac vice. The Evidentiary Hearing was rese t

11

for September 10, 2014 at 9:00 am. Despite having counsel, on February 13,2014, Petitioner

12

filed a Third Amended Pro Per Petition for Writ of Habeas Corpus for Post-Conviction Relief

13
14

and a pro per Motion to Withdraw Counsel of Record, seeking the withdraw of Mr. Ericsson.
On March 4, 2014, Petitioner filed a document entitled Judicial Notice and Supplement to

15
16
17
18
19

Supplemental Exhibits in Support of Third Amended Pro Per Petition for Writ of Habeas
Corpus.
On March 10, 2014 during the hearing of Petitioner’s Motion to Withdraw Counsel of
Record, Mr. Ericsson represented he previously had been contacted by an attorney in California

20
21
>-

111

Z

s

who had been hired to represent Petitioner. Petitioner’s motion to Withdraw Counsel of Record

22

was granted and on March 24, 2014, Mr. Bryson’s Motion to Associate Counsel was granted

23

and Petitioner received his fourth counsel.

< uj 3

111 2*
uj occc
H
fc
<
ll
w q.

tag

Despite having counsel, on March 27, 2014 Petitioner again filed a pro per document

25
~

26

entitled Supplemental Points and Authorities in Support of Third Amended Pro Per Petition of

27

Writ of Habeas Corpus. On April 2, 2014, Brent Bryson, Esq. filed a Motion to Withdraw as

28

Local Counsel of Record in which Mr. Bryson represented that Petitioner had terminated Mr.

1

Parker, Esq.’s representation. On April 7, 2014, Mr. Bryson’s motion to Withdraw was granted

2
3

and Dayvid Figlcr, Esq. confirmed as Petitioner’s fifth counsel.
Though Petitioner had counsel, Petitioner filed another pro per document entitled

4
5
6

Judicial Notice in Support of Third Amended Pro Per Petition for Writ of Habeas Corpus for
Post-Conviction on April 17, 2014. On May 13, 2014, Petitioner filed a Motion to Withdraw

7
Counsel of Record and Proceed in Pro Per. On May 30, 2014, the State filed a Response. In the
8
9

State’s response, the State took no position as to Petitioner’s motion but in the event the Court

10

granted Petitioner’s motion, the State requested the Court conduct a Faretta1 canvass. On June

11

4, 2014, a hearing was held on Petitioner’s motion for which Petitioner and Counsel Mr. Figler,

12

Esq. were both present. At this hearing, Petitioner’s Motion to Withdraw Counsel of Record an<

13

Proceed in Pro Per was denied.

14
On July 11, 2014, Petitioner filed a Motion to Self-Represent with Stand-by Counsel.

15
16

The State filed its opposition on July 30, 2014. On August 6, 2014, Petitioner informed the

17

court that he wished to represent himself and was prepared to continue with preparing a

18

superseding petition to replace the numerous prior petitions, supplements, and amended

19
petitions. This Court granted Petitioner’s motion in part allowing Petitioner to represent himsell
20
21
>Ul

2
.
< uj c<

22

filed his Superseding Pro Per Petition for Writ of Habeas Corpus (Post-Conviction) and a

23

document entitled “Judicial Notice of Reporter’s Transcript’s [sic] and Exhibit’s [sic] in

111

iu a. cc
j

X
J—

2

but declining to appoint a sixth counsel as stand-by counsel. On December 3, 2014, Petitioner

Support of Superseding Pro Per Petition for Writ of Habeas Corpus.” This petition superseded
25

all other prior petitions, supplements, and amended petitions and the State only responded to the

26
27

arguments outlined in the Superseding Petition.

28
1

422 U.S. 806, 95 S. Ct. 2525 (1975).

1

In Petitioner’s Superseding Pro Per Petition for Writ of Habeas Corpus (Post-

2
Conviction), Petitioner argues four grounds as to why an evidentiary hearing is necessary.
3
4

These grounds are as follows: first, Petitioner’s counsel was ineffective for failing to file a

5

motion to suppress evidence based on a warrantless search and seizure; second, Petitioner’s

6

counsel was ineffective on appeal for failing to raise issues of prosecutorial misconduct based

7

on the Prosecutor’s closing argument; third, Petitioner’s counsel was ineffective on appeal for

8

failing to raise issues of judicial error for supplementing jury instructions after the jury had

9
already retired for deliberation; and fourth, the cumulative effect of these errors combined
10
11

prejudiced petitioner.

12
13
14

After further review of the briefings, the Court concludes that an evidentiary hearing is
not necessary. Furthermore, the Court makes the following findings of fact and conclusions of
law.

15
16

II.

17

FINDINGS OF FACT

18
19

A, The Offense.
On April 2, 2008, the Las Vegas Metropolitan Police Department were dispatched

20
21
22
>-

in response to shots being fired at the Lake Mead Estates Apartment complex. Upon the
arrival of the officers, they located Anthony Davis, on the ground outside his apartment

23

with a gunshot wound to the back of his head, Tina Grigsby exited the apartment and told

ui □ iz

24

the officers that Petitioner, her estranged husband, had shot Anthony Davis. Reporter’s

lli h 5
zyh

25

Transcript 1/28/2009, p. 73-74, 109. Upon being interviewed at the scene, Tina Grigsby

ui

Z

v

< lUy

ui ct cc

26
2

'

27
28

revealed she was having an affair with the victim. Id, Tina Grigsby further stated that
Petitioner lived at Apartment #140 of the Lake Mead Estates complex. Id Dennis Grigsby
was not at the scene. State’s Exhibit A.

1

Police radio communication indicates that the officers were aware at 11:08 pm on

2
April 2, 2008 that Petitioner lived in the Lake Mead Estates complex. Id. at 2. Afterwards,
3
4

Officer Michael Kitchen’s radio communication indicates the location of Apartment #140

5

within the apartment complex. Id. at 4. Further, at 11:51 pm, Officer Kitchen’s radio

6

communication indicated that he knocked on Petitioner’s door and there was no answer

7

and Apartment #140 was locked and secured. Id. at 5.

8
9

While officers continued to process the scene, Petitioner’s mother, Mildred

10

Grigsby, arrived on the scene and officers discovered that Petitioner’s apartment was

11

leased in Mildred Grigsby’s name. Reporter’s Transcript 1/28/2009, pp. 64-65. Officers

12

then asked Petitioner’s mother if they could enter the apartment and attempt to locate

13
14

Petitioner to which Petitioner’s mother agreed. State’s Exhibit A. Officers then entered the
apartment and did not find Petitioner inside. Id. After exiting and securing the apartment,

15
16

officers awaited a search warrant. Reporter’s Transcript 2/2/2009, pp. 32-33. During the

17

search warrant application, officers did not provide any information containing items seen

18

in Petitioner’s apartment. State’s Exhibit A.

19

While awaiting the search warrant, Petitioner’s mother approached the officers

20
21

while on the telephone and began relaying information to someone on the other end of the

22

phone. Reporter’s Transcript 2/2/2009, pp. 100-03. Petitioner’s mother asked to retrieve

^

23

something from Petitioner’s apartment but refused to tell officers what the item she wished

iuo*
0^7

24

to retrieve was. Id at 31-32. Officers informed Petitioner’s mother that the apartment had

Jj o: cc

25

>uj
z

< ai v

ui^i
x
og
h-

3

26

been secured and no one could enter, at which time Petitioner’s mother gave the officers a
key to the apartment and left. Id. at 31-33. Subsequently, the search warrant arrived and

27
28

officers then entered Petitioner’s apartment. Id. at 33.

1

B. The Jury Trial.

2
3

At trial, during the State’s closing argument, Chief Deputy District Attorney Robert

4

Turner stated to the jury that a guilty verdict on the charge of first degree murder is

5

allowed so long as the jury is unanimous on the issue of guilt, despite whether the jury is

6

unanimous or not regarding the theories of guilt, specifically either the premeditation-and-

7
deliberation or the lying-in-wait theories. Reporter’s Transcript. 2/4/2009, p. 4748.
8
9

Petitioner s counsel asked if the two sides could approach the bench and, during this bench

10

conference, Petitioner’s counsel acknowledged that the aforementioned statement in the

11

State’s closing argument is an accurate statement of law. Icf at p. 1 -2, internal pages 3-5.

12

During deliberation the District Court was handed a supplemental jury instruction

13
14

regarding the comment on the different theories of first degree murder after the jury had

15

already retired to deliberate and had been deliberating for six to eight hours. Id, at p. 1,

16

internal pages 34. However, the Court decided to not send these supplemental jury

17

instructions as the Court said giving this to the jury might be unfair and put undue

18

emphasis on the State’s comments. Id, The jury returned with a verdict finding Petitioner

19
guilty of First Degree Murder with Use of a Deadly Weapon and then reconvened to find

20
21
>-

Ui

22

III.

23

CONCLUSIONS OF LAW

111 24
uj K ^

z
^
uj cc tr

25

iSg
*-

26

2

Petitioner guilty of Possession of Firearm by Ex-Felon.

The Sixth Amendment of the United States Constitution guarantees effective
assistance of counsel at trial. To establish a claim of ineffective assistance of counsel, a

27
28

petitioner must first show that counsel’s performance fell beneath “an objective standard of
reasonableness.” Strickland v. Washington. 466 U.S. 668, 688 (1984). Once deficient
performance is established, the petitioner must show that the deficient performance

1
2

prejudiced him; that but for counsel’s deficiency, the result at trial would have been
different. Id. at 694.

3
4

The court begins with the presumption of the effectiveness of counsel and then

5

must determine whether a petitioner, by a preponderance of the evidence, has established

6

that counsel was ineffective. Means v. State. 120 Nev. 1001, 1011 (2004). “Effective

7

counsel does not mean errorless counsel, but rather counsel whose assistance is ‘[wjithin

8

the range of competence demanded of attorneys in criminal cases.

Jackson v. Warden. 91

9
Nev. 430, 432(1975)!
10
11

Even if a petitioner can demonstrate that his counsel’s representations fell below an

12

objective standard or reasonableness, petitioner still must demonstrate a reasonable

13

probability of prejudice that would have changed the outcome of the trial. McNelton v.

14

State, 115 Nev. 396, 403 (1999) (citing Strickland. 466 U.S. at 687). “A reasonable

15

probability is a probability sufficient to undermine confidence in the outcome.” Id. (citing

16
17
18

effectiveness and petitioner must overcome this presumption by a preponderance of the

20

evidence. Means v. State. 120 Nev. at 1012.

22
.

In respect to an inquiry of ineffective assistance of counsel, a strategic decision,

24

such as whether or not to file a motion, is “virtually unchallengeable.” Howard v. State.

zil 25

"two.
log

26

2

27

H

A. Petitioner’s Counsel was Not Ineffective for Choosing Not to File a Motion to
Suppress Based on Warrantless Search and Seizure

23

< uj C

UJ O' O'
UJ I- <

As stated and based on this case law, the court begins with the presumption of

19

21
>UJ
z

Strickland. 466 U.S. at 687-89).

28

106 Nev. 713, 722 (1990) (citing Strickland. 466 U.S. at 691). In the present case,
Petitioner’s counsel was aware of “suppression issues” regarding the search of Petitioner’s
apartment and counsel consciously declined to pursue it. Reporter’s Transcripts 8/4/2008,
pp. 126-27. Due to the presumption of effectiveness of counsel and this strategic decision

I

is within the range of competence of counsel within criminal trials, the first prong of the

2
Strickland test’s requiring a showing of deficient performance is not satisfied.
3
4

Further, any suppression motion would have been without merit and therefore

5

Petitioner cannot demonstrate prejudice as required under Strickland. The United States

6

Supreme Court has made it clear that whenever a police officer desires to conduct a search,

7

they may do so without obtaining a warrant if the owner of the area consents. Schneckloth

8

v. Bustamonte, 412 U.S. 218, 222 (1973). A property interest in the place to be searched is

9
10

a sufficient, though not necessary, source of actual authority to consent. State v. Taylor.

11

114 Nev. 1071, 1079 (1998). Similarly, where a person assumes the risk that a third party

12

may consent to a search, it endows that third party with actual authority to consent. Id.

13

Further, the leaseholder or owner of a property has actual authority' to consent to a search,

14

even if they are not occupying the premises at the time of consent. See id; see also State v.

15

Miller. 110 Nev. 690, 697 (1994).

16
17
18

of the apartment, only that she was not presently living at the apartment. However,

19

Petitioner’s mother had a property interest in the apartment, including the right to mutual

20

use, and therefore had actual authority to consent to the search under Taylor. Further,

21
22
>
UJ

z
^
<wC
J(3x

“J Q L_

a3z
ui OCX

In the present case, Petitioner does not dispute that his mother was the leaseholder

Petitioner assumed the risk that Petitioner’s mother could consent to a search as shown by
giving her a spare key to the apartment and asking her to go to the apartment and wait upon

23
24

his call. Because Petitioner assumed the risk of his mother consenting to a search and

25

Petitioner’s mother had actual authority to consent to a search under Nevada case law,

26

there is not a reasonable probability that had Petitioner’s counsel filed a motion to suppress

27

that the result of the trial would have been different and therefore no prejudice exists.

28

Lastly, a search warrant was obtained properly based on Tina Grigsby’s statements
and the initial entry into the apartment was not a but-for cause of the discovery of

1

evidence. The initial entry into the apartment was simply to look for Petitioner himself.

2
Because the initial entry did not lead to any evidence but rather the evidence was obtained
3
4

after receiving a search warrant, a motion to suppress this evidence would have been moot.

6

B. Appellate Counsel was Not Ineffective for Choosing Not to Raise a Meritless Claim
of Prosecutorial Misconduct as the Prosecution Accurately Stated the Law During
Closing Arguments

7

Appellate counsel is not required to raise every issue to provide effective assistance

5

8

and is entitled to make tactical decisions to limit the scope of issues raised to the stronger

9
arguments rather than the weaker ones. Foster v. State. 121 Nev. 165 (2005). Further, in

10
11

Jones v. Barnes, the United States Supreme Court recognized that part of professional

12

competence and being an effective counsel requires “winnowing out weaker arguments on

13

appeal” because a brief that raises every issue runs the risk of burying the stronger

14

arguments. 463 U.S. 745, 751-53 (1983). To prevail on a challenge involving ineffective

15

counsel failing to raise an issue on appeal, the petitioner must show the omitted issue

16
17
18
19
20
21
22
>•

ui

hi
mar
o=z

uu j— y
£ O' O'

would have had a reasonable probability of success on appeal. Nika v. State. 124 Nev.

1272, 1293 (2008).
In reviewing a claim of prosecutorial misconduct, the Court engages in a two-part
analysis. Valdez v. State, 124 Nev. 1172, 1188 (2008). The first step requires that the
prosecutorial statements were in fact improper. IdL Only if the statements were improper
will the Court proceed to the next step which involves if the improper comments

23
24
25

prejudiced the petitioner to affect the results of the proceeding. Id
In the present case, Petitioner’s counsel was not ineffective because the outcome of

sag

26

the appeal would not have changed if Petitioner’s counsel raised the issue of prosecutorial

2

27

misconduct and therefore Petitioner was not prejudiced. The State’s comment during

28

closing arguments regarding the jury being allowed to return a guilty verdict so long as the
issue of guilt is unanimous, regardless of the theory underlying the issue of guilt, is an

1
2

accurate statement of law. See Walker v. State. 113 Nev. 853, 870 (1997); see also Mason
v. State, 118 Nev. 554, 558 (2002). Because the prosecutor’s comments accurately

3
4

reflected the law, the first prong of the Valdez two-part test, requiring the prosecutorial

5

statements to be improper, is not satisfied and therefore Petitioner cannot show that this

6

issue on appeal would have had a reasonable probability of success and Petitioner was not

7

prejudiced.

8
9
10

11

C. Appellate Counsel was Not Ineffective for Choosing Not to Raise a Meritless Claim
of Judicial Error
Petitioner’s third claim is similar to his second in that he claims appellate counsel
was ineffective for failing to raise a claim on appeal ofjudicial error. Petitioner’s assertion

12
that the District Court improperly gave a jury instruction is belied by the record and

13
14
15
16
17
18

therefore meritless. The record shows that the Court specifically said,
I had indicated we would supplement the instructions. We didn’t get a
supplement to the instructions to the jury at the outset when they did
adjourn to confer the matter, and we discussed it in chambers after a copy
was deliver to my chambers, and I felt that the agreement was to send this in
at this time after six or eight hours of deliberation. It might put a little undue
emphasis. It might be unfair so I have it in my hand. It will be the next
Court’s exhibit, but we did not give this over to the iurv.

19
20

>-

21

Court did not, as Petitioner alleges, provide a late supplemental instruction to the jurors and

22

therefore was not prejudiced by a failure to raise a meritless claim of judicial error.

v,

23

JOv
uj o::

24

UJ
Z

ORz
uj w !g

25

m H <

“J co £
i-

2

Reporter’s Transcript, 2/4/2009, p.l, internal pages 3-4 (emphasis added). The District

Further, NRS 175.161(1) provides that the Court can give further instructions to the
jury after the jury has retired to deliberate. This meant that had the Court given the
instruction, the Court would have abided by Nevada law and as mentioned in Petitioner’s

26
27
28

second argument, the instruction would have been an accurate statement of Nevada law.
Therefore, Petitioner’s Counsel’s strategic decision not to raise this claim upon appeal did
not prejudice Petitioner.

1

D. There was No Cumulative Error and Reversal is Unwarranted

2
First, the Nevada Supreme Court has expressed doubt that a cumulative error
3
4

analysis is applicable in the context of ineffective assistance of counsel. McConnell v.

5

State. 125 Nev. 243, 259 & n. 17 (2009). Further, “relevant factors to consider in

6

evaluating a claim of cumulative error are; 1) whether the issue of guilt is close, 2) the

7

quantity and character of the errors, and 3) the gravity of the crime charged.” Mulder v.

8

State. 116 Nev. 1, 17(2000).

9
10
11

In the present case, the issue of guilt was not close as Tina Grigsby identified
Petitioner’s clothing and voice which inculpated Petitioner. Also, Petitioner’s actions after

12

the murder further supported his conviction. Even though the crime charged had significant

13

gravity, all of Petitioner’s aforementioned arguments have not shown any ineffective

14

assistance of counsel. Because there are no errors to cumulate, the Petitioner’s argument of

15

cumulative errors is meritless.

16
17

IV.
ORDER

18
19
20
21

For all of the foregoing reasons, it is hereby ORDERED that the Petitioner’s PostConviction Petition for Writ of Habeas Corpus is DENIED.
DATED this SO of July, 2015.

22
>U1

23

ssssl

24

Z - h

25

£ a a.
<;
hi

W CL

26
27
28

/

KATHLEEN E. DELANEY
DISTRICT COURT JUDGE

1

CERTIFICATE OF SERVICE

2

I hereby certify that on or about the date filed, the foregoing FINDINGS OF

3

FACT, CONCLUSIONS OF LAW AND ORDER DENYING SUPERSEDING

4
5

PROPER PERSON PETITION FOR WRIT OF HABEAS CORPUS

6

(POSTCONVICTION) was E-Served, mailed, or placed in the attorney’s folder in the

7

Clerk's Office as follows:

8
9
10
11
12

Ryan MacDonald, Esq. - Deputy District Attorney
Dennis Marc Grigsby #1033640
High Desert State Prison
P.O. Box 650
Indian Springs, NV 89018

13
14

Cindy Sprmgberg

15

Judicial Executive Assistant

16
17
18
19
20
21
22
>
i±j

z

^

23

< LU x

Q^g
ui h w

24

gll 25
in H <
“j CD CL

h

<
*

a

26
27

28

^

\

